Report No. D2007-056     February 7, 2007




   Integrated Accounts Payable System
  Compliance with the Defense Business
   Transformation System Certification
                 Criteria
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CCA                   Clinger-Cohen Act
CIO                   Chief Information Officer
CONOPS                Concept of Operations
DAA                   Designated Approving Authority
DBSMC                 Defense Business Systems Management Committee
DEAR                  Database Enhancement and Restructure
DFAS                  Defense Finance and Accounting Service
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
ESG                   Executive Steering Group
FFMIA                 Federal Financial Management Improvement Act
GAFS                  General Accounting and Finance System
IAPS                  Integrated Accounts Payable System
IRB                   Investment Review Board
IRWG                  Investment Review Working Group
NDAA                  National Defense Authorization Act
OSD                   Office of the Secretary of Defense
SSAA                  System Security Authorization Agreement
                     Department of Defense Office of Inspector General
Report No. 2007-056                                                                       February 7, 2007
      (Project No. D2006-D000FB-0164.000)

                    Integrated Accounts Payable System Compliance
                       with the Defense Business Transformation
                              System Certification Criteria

                                          Executive Summary

Who Should Read This Report and Why? DoD personnel who prepare, review,
certify, and approve Defense business system investments will find this report of interest.
It describes the Defense Finance and Accounting Service (DFAS) policies and
procedures used to certify and approve Defense business system modernizations under
$1 million. Specifically, this report discusses the procedures used to approve the
FY 2006 modernization efforts for the Integrated Accounts Payable System (IAPS).

Background. The Deputy Under Secretary of Defense (Business Transformation)
requested that we review DoD Component compliance with the Defense Business
Transformation System Certification Criteria. This report is one in a series and discusses
the compliance of IAPS with the Defense Business Transformation System Certification
Criteria. Subsequent reports will discuss other business systems compliance.

The “National Defense Authorization Act for Fiscal Year 2005” (NDAA) states that
funds appropriated for Defense business system modernizations in excess of $1 million
may not be obligated unless certified by the Designated Approving Authority and
approved by the Defense Business Systems Management Committee. To comply with
the NDAA, the Defense Business Systems Management Committee issued the
Investment Review Board Concept of Operations. The Concepts of Operations provides
guidance on certifying Defense business system investments in excess of $1 million,
which require an Office of the Secretary of Defense-level review and approval. Defense
business system investments under $1 million do not require an Office of the Secretary of
Defense-level review and approval, unless designated as a special interest program. ∗
Investments under $1 million are subjected to the Component-level review and approval
process. The Component-level investment review processes should be consistent with
the NDAA and the Concept of Operations.
IAPS is a DFAS automated system. It supports the payment of commercial vendors and
provides support for standard Electronic Data Interchange transactions, thus allowing full
support for DoD and electronic commerce initiatives.

Results. DFAS did not implement sufficient controls to ensure that the modernization
decision for IAPS was based on adequate documentation. As a result, the DFAS
Executive Steering Group approved the modernization for $759,000 based on
unsupported information. Without adequate standard procedures and controls for

∗
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
    achievement of a capability or set of capabilities. Special interest is also based on whether the program is
    a joint program or whether the resources committed to the program are substantial.
modernizations under $1 million, the DFAS Executive Steering Group may continue to
approve procurements that are not adequately supported and reviewed. Therefore, the
DFAS Executive Steering Group needs to take corrective action to ensure that detailed
instructions are developed, supporting documentation is maintained, and review
procedures are developed and followed (see the Finding section of the report for the
detailed recommendations).

Management Actions. During the audit, the Defense Finance and Accounting Service
Investment Review Working Group acknowledged the need to improve their investment
review process. They stated that they have begun working to refine their investment
review process by refining their validation process and developing FY 2007 guidance and
instructions.

Management Comments and Audit Response. The Director, Information and
Technology responding for the Director, DFAS partially agreed with the need for better
documentation and did not agree with the conclusion that the IAPS modernization was
based on unsupported information. The Director stated that the 2005 NDAA does not
direct Investment Review Boards to require Clinger-Cohen Act or Federal Financial
Management Improvement Act compliance. In addition, the CCA comments in the
report note items that the audit team did not review rather than focusing on the
Investment Review Working Group’s examination and rationale. The Director disagreed
with the conclusion that the Database Enhancement and Restructure modernization was
not supported because an updated System Security Authorization Agreement was not in
place. However, the Director indicated that the System Security Authorization
Agreement was updated with information about the Database Enhancement and
Restructure modernization in September 2006. We reviewed the DFAS Investment
Review Process procedures and found that system managers were required to certify that
their systems were aligned with applicable policies, laws, and regulations. Specifically,
system managers were required to indicate if their system was compliant with the
Clinger-Cohen Act, the DoD Information Technology Security Certification and
Accreditation Process, and the Federal Financial Management Improvement Act.
Regarding the Director’s comments on the audit team’s review of Clinger-Cohen Act
compliance, Investment Review Working Group officials stated that they created a
requirements table for reviewing IAPS compliance with the Clinger-Cohen Act. We
considered the Investment Review Working Group examination and rationale in auditing
the Investment Review Board process by examining the contents of the table. As
indicated in this report, the Investment Review Working Group referenced six documents
used to validate IAPS compliance with the Clinger-Cohen Act. However, three of the six
documents were either not available, not required in the certification package, or did not
contain updated information.

The Director, Information and Technology concurred with our recommendations and
stated that for FY 2007, DFAS will require that all modernization efforts have the same
documentation and level of review, regardless of whether the investment amount is under
or over $1 million. In addition, DFAS established a system document repository,
provided mandatory training for system managers, and published standard review
criteria. A discussion of management comments is in the Finding section of the report
and the complete text is in the Management Comments section.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Review of Internal Controls                                             4

Finding
     DFAS Investment Review Process for Investments Under $1 Million   5


Appendixes
     A. Scope and Methodology                                          15
     B. Report Distribution                                            17

Management Comments
     Defense Finance and Accounting Service                            19
Background
    The Deputy Under Secretary of Defense (Business Transformation) requested that
    we review DoD Component compliance with the Defense Business
    Transformation System Certification Criteria. This report is one in a series and
    discusses the compliance of the Integrated Accounts Payable System with the
    Defense Business Transformation System Certification Criteria. Subsequent
    reports will discuss other business systems compliance.

    National Defense Authorization Act. On October 28, 2004, Congress passed
    Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
    Fiscal Year 2005 (NDAA).” Section 2222 of the NDAA states that funds
    appropriated for Defense business modernizations in excess of $1million may not
    be obligated unless the Designated Approving Authority (DAA) certifies the
    modernization to the Defense Business Systems Management Committee
    (DBSMC), and the DBSMC approves the certification. The NDAA defines
    business system modernizations as, “the acquisition or development of a new
    defense business system or any significant modification or enhancement of an
    existing system.” In addition, the NDAA required the Secretary of Defense to
    delegate the review, approval, and oversight of the Defense business systems to
    the following four Office of the Secretary of Defense (OSD)-level approval
    authorities:

           •   Under Secretary of Defense for Acquisition, Technology, and
               Logistics;

           •   Under Secretary of Defense (Comptroller)/Chief Financial Officer;

           •   Under Secretary of Defense for Personnel and Readiness; and

           •   Assistant Secretary of Defense for Networks and Information
               Integration and Chief Information Officer of the Department of
               Defense.
    Each approving authority is required to establish an investment review process
    that periodically (at least annually) reviews all business system investments. In
    addition, the process should include an Investment Review Board (IRB) review
    and approval for each Defense business system.

    Section 186 of the NDAA directed the Secretary of Defense to establish the
    DBSMC. The DBSMC is responsible for coordinating Defense business system
    modernization initiatives to maximize benefits and minimize costs, and ensure
    that funds are obligated for Defense business systems in a manner consistent with
    section 2222 of the NDAA.

    Investment Review Boards Concept of Operations. On June 2, 2005, the
    DBSMC issued the Investment Review Board Concept of Operations (CONOPS).
    The CONOPS integrates policies, specifies responsibilities, and establishes
    processes to comply with section 2222 of the NDAA. It outlines the investment



                                         1
           review process that all IRBs, Components, chief information officers (CIO), and
           program managers should follow if they have responsibility for business system
           investments.

           The CONOPS introduces a structured investment review and certification process
           that includes determining review and certification requirements, Component
           review, and OSD-level review and certification. The CONOPS identifies three
           levels of certification review or tiers. Tier certification processes are established
           based on the program scope, cost, and complexity. The tier process also provides
           flexibility if the program has been designated as a special interest program. 1 The
           CONOPS defines the following tier certification processes.

           •    Tier 1 IRB: certification processes that apply to Major Automated
                Information Systems or programs.

           •    Tier 2 IRB: certification processes that apply to modernizations and
                investments greater than $10 million to less than the Major Automated
                Information System threshold, 2 or those designated as special interest.

           •    Tier 3 IRB: certification processes that apply to those modernizations and
                investments greater than $1 million to less than $10 million.

           The CONOPS provides guidance on preparing, reviewing, and certifying Defense
           business system investments in excess of $1 million, which require an OSD-level
           review. Defense business system investments under $1 million do not require an
           OSD-level review and approval, unless designated as a special interest program.
           Instead, investments under $1 million require a Component-level review and
           approval process. 3 The CONOPS requires Components to establish their own
           governance structures for investment review to support their transformation
           initiatives. The Component investment review processes should be consistent
           with the NDAA and the CONOPS. Other than Component-developed procedures,
           there are no criteria for reviewing and approving investments under $1 million.

           Defense Finance and Accounting Service Investment Review Process. The
           Defense Finance and Accounting Service (DFAS) developed a Component-level
           review and approval process. For FY 2006 modernization investments under
           $1 million, DFAS developed and used workbooks. The workbooks were modeled
           after the standard set of IRB criteria outlined in the CONOPS. The workbooks
           contained system-specific questions. System managers were required to certify if
           their automated systems were aligned with applicable policies, laws, and
           regulations. Specifically, system managers were required to indicate if their
           system was compliant with the Clinger-Cohen Act (CCA), DoD Information
           Technology Security Certification and Accreditation Process (DITSCAP), and the
           Federal Financial Management Improvement Act (FFMIA).

1
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
    achievement of a capability or set of capabilities. Special interest is also based on whether the program is
    a joint program or whether the resources committed to the program are substantial.
2
    The current Major Automated Information System threshold is $32 million.
3
    The process is referred to as a tier 4 process.



                                                        2
    Clinger-Cohen Act. The CCA of 1996 establishes a top-down restructuring of
    Federal information technology acquisition programs. The goal of the CCA is to
    improve the acquisition and management of Federal information technology
    programs. The CCA requires the establishment of an efficient and effective
    information technology program for the Federal Government.

    DoD Information Technology Security Certification and Accreditation
    Process. The DITSCAP establishes a standard Department-wide process, set of
    activities, general tasks, and management structure to certify and accredit
    information systems and maintain the information assurance and security posture
    of the Defense information infrastructure throughout the life cycle of each system.
    The accreditation process is a formal declaration by the DAA that an information
    system is approved to operate in a particular security mode using a prescribed set
    of safeguards at an acceptable level of risk.

    Federal Financial Management Improvement Act. The FFMIA was created in
    1996 to ensure consistent accounting by an agency from one fiscal year to the
    next. FFMIA also provides uniform accounting standards throughout the Federal
    Government. Federal financial data, including the full costs of Federal programs
    and activities, are required so that programs and activities can be considered
    based on their full costs and merits.

    Integrated Accounts Payable System. For FY 2006, a workbook was
    completed for a $759,000 modernization to the Integrated Accounts Payable
    System (IAPS). IAPS is a DFAS automated system. IAPS supports the payment
    of commercial vendors conducting business with the Air Force, Air National
    Guard, National Geospatial Intelligence Agency, and the Defense Security
    Service. The system computes accounts payable due dates, payment amounts,
    and interest payments. IAPS processes commitment transactions electronically to
    the General Accounting and Finance System (GAFS), and payment authorization
    data to the Central Disbursing System. In addition, IAPS provides support for
    standard DFAS Electronic Data Interchange transactions, allowing full support
    for DoD and DFAS electronic commerce initiatives such as Wide-Area
    Workflow, Web Invoicing System, the Government Purchase Card Program, and
    PowerTrack.


Objectives
    Our overall audit objective was to determine whether IAPS was properly certified
    and accredited in accordance with the Defense Business Transformation System
    Certification Criteria. Specifically, we determined if IAPS complied with the
    Investment Review Process. Although an announced objective, we did not review
    the management control program as it related to the overall objective because a
    management control program has not been developed for the Investment Review
    Process. See Appendix A for a discussion of the scope and methodology.




                                         3
Review of Internal Controls
     DFAS did not implement sufficient controls to ensure that the modernization
     decision for IAPS was based on adequate documentation. As a result, the DFAS
     Executive Steering Group approved the modernization for $759,000 based on
     unsupported information. Without adequate standard procedures and controls for
     modernizations under $1 million, the DFAS Executive Steering Group may
     continue to approve procurements that are not adequately supported and
     reviewed. See the Finding section of the report for a complete discussion of our
     review.




                                         4
           DFAS Investment Review Process for
           Investments Under $1 Million
           DFAS did not implement sufficient controls to ensure that the
           modernization decision for IAPS was based on adequate documentation.
           This occurred because:

           •   supporting documentation was not always maintained or current;

           •   the DFAS Investment Review Working Group (IRWG) did not
               provide adequate guidance for the IAPS system manager on how to
               complete the IRB workbook; and
           •   the IRWG did not provide adequate review procedures for the IRB
               workbook.

           As a result, the DFAS Executive Steering Group (ESG) approved the
           IAPS modernization for $759,000 based on unsupported information.
           Without adequate standard procedures and controls for modernizations
           under $1 million, DFAS may continue to approve procurements that are
           not adequately supported and reviewed.


DFAS Investment Review Process
    On September 2, 2005, DFAS established their own investment review process
    and governance structure to support Component transformation initiatives and to
    comply with the CONOPS. DFAS designated the CIO as the headquarters-level
    authority that is accountable for business system investments. The CIO acts as
    the Pre-Certification Authority for business system modernizations or
    enhancements under $1 million. The CIO certifies and submits investment
    proposals to the ESG.

    DFAS Executive Steering Group. The ESG is the agency’s primary,
    executive-level, decision-making body that reports to the Director of DFAS.
    Among many other responsibilities, the ESG oversees the DFAS portfolio
    management initiatives. In doing so, the ESG serves as the Component-level IRB
    for DFAS. They review and approve investment proposals based on decision
    criteria such as the CONOPS and internal DFAS policies and procedures.

    DFAS Investment Review Working Group. The ESG established the DFAS
    Information Technology IRWG to conduct due diligence reviews and provide
    input on information technology portfolio and investment issues to the ESG. It is
    chaired by the Deputy CIO, and composed of a representative from each DFAS
    directorate or business line. The IRWG coordinates and resolves investment




                                        5
           issues that arise in the Portfolio Management Processes. 4 They also recommend
           approval of investment proposals to the ESG.

           DFAS IRB Process for Investments Under $1 Million. The IRWG assists in
           overseeing the Investment Review Process. Prior to obligating funds for
           modernizations and enhancements under $1 million, DFAS required that system
           managers complete an IRB workbook providing current system information. The
           IRWG pre-populated the workbooks to support system managers in meeting
           review requirements. System managers were required to complete the workbook
           by answering system-related questions and providing supplemental documents
           such as architecture diagrams. The system managers were instructed to submit
           the required materials to the IRWG through the DFAS ePortal. 5 The workbooks
           and supplemental material were reviewed by the IRWG. If the investment
           proposals were satisfactory, the IRWG recommended certification to the CIO.
           The CIO would then certify and recommend approval of the investment proposal
           to the ESG. See the following diagram for the DFAS Investment Review Process
           for investments under $1 million.




           DFAS IRB Process for Investments Under $1 Million

           FY 2006 Modernization. During FY 2006, DFAS requested $759,000 in
           funding to complete final systems acceptance testing and implement a major
           database restructure for IAPS known as the Database Enhancement and
           Restructure (DEAR). The DEAR modernization would allow IAPS to support
           electronic commerce initiatives and add functionality to support electronic
           interfaces.


4
    Portfolio Management is part of the DFAS governance process for information technology investment
    management and review.
5
    The DFAS ePortal is a web-based tool that contains IRWG guidance, templates, meeting minutes,
    memorandums, and folders for submitting system documentation.



                                                     6
    The DEAR modernization would restructure the IAPS database so that the
    contract line item number and accounting classification reference number could
    be cross-referenced. Specifically, DEAR would allow for full or partial receipt
    and acceptance of goods and services by line item. It would also provide the
    capability to automatically match invoices to obligations and receiving reports by
    document and line item and provide for two-way matching (obligation and
    invoice) and three-way matching (obligation, receiving report, and receipt of
    invoice). Additionally, DEAR would expand the IAPS database to support a
    thirty-position invoice number data field.

    IAPS would be modified to support GAFS fiscal year-end conversion by
    changing accounting records to prior-year status to maintain agreement with
    GAFS. The fiscal year-end conversion is scheduled immediately after the DEAR
    modernization achieves initial operational capability.


FY 2006 Integrated Accounts Payable System Workbook
    DFAS did not implement sufficient controls to ensure that the modernization
    decision for IAPS was based on adequate documentation. Specifically, the
    workbook responses to CCA, DITSCAP, and FFMIA compliance questions were
    not adequately supported.

    Clinger-Cohen Act. The IRB workbook indicated that IAPS was compliant with
    CCA. However, we could not sufficiently validate whether IAPS was compliant
    with CCA because of the lack of supporting documentation.

    According to IRWG officials, they created a requirements table for reviewing
    IAPS compliance with CCA similar to the table depicted in DoD Instruction
    5000.2, “Operation of the Defense Acquisition System,” May 12, 2003. The table
    in the instruction identifies requirements to be used to help determine whether a
    system is CCA compliant. Of the ten requirements on the table, four were not
    applicable to IAPS. The IRWG explained that these were not applicable because
    IAPS pre-dates the CCA and no modification or event has mandated a CCA
    compliance review until the current DEAR modernization.

    In addition, the IRWG referenced IAPS documents that support the remaining six
    requirements. These documents were also used to validate IAPS compliance with
    the CCA. These documents were:

        •   IRB workbook,

        •   Dashboard,

        •   Economic Viability worksheet,

        •   DEAR modernization release project schedule,

        •   Business Enterprise Architecture worksheet, and



                                         7
    •   System Security Authorization Agreement (SSAA).

Three of the six documents referenced were either not available, not required to
be included in the IAPS certification package, or did not contain updated
information. Specifically, the Economic Viability worksheet and the DEAR
modernization release project schedule were not provided to the audit team for
review. Although the IRWG referenced the Economic Viability worksheet as
supporting program documentation, the IRWG had already informed us that the
economic viability analysis was not required in the certification package for
modernizations and enhancements under $1 million. In addition, the SSAA did
not contain updated information to reflect accepted risks.

According to the CCA of 1996, the executive agency is responsible for designing
and implementing a process for maximizing the value and assessing and
managing the risks of the information technology acquisitions of the agency.
Specifically, the process should provide for the:

    •   selection of information technology investments,

    •   management of such investments,

    •   evaluation of the results of such investments, and

    •   minimum criteria for considering undertaking a particular investment.

Although DFAS is working to refine the CCA compliance and validation process,
IAPS compliance with CCA for FY 2006 is not sufficiently validated and remains
unsupported.

DoD Information Technology Security Certification and Accreditation
Process. The IRB workbook indicated that IAPS was compliant with DITSCAP.
The response was unsupported because the SSAA that was provided as supporting
documentation was not updated. The DFAS DAA signed the SSAA and granted
IAPS an Authority-to-Operate on September 5, 2003. The DFAS DAA accepted
the high risk that IAPS was under a complete re-design to support the agency’s
electronic data exchange efforts. They also acknowledged that the ability of
IAPS to field software changes to meet the agency’s goals for electronic data
exchange in a timely manner may be questionable. Based on the signed SSAA,
the DFAS DAA stated the DEAR modernization was on schedule, and would be
fielded in April 2004. However, during our site visit in May 2006, the DEAR
modernization had not been implemented. In addition, the SSAA was not
updated to reflect the accepted residual risk despite the change in the original
security posture accepted by the DFAS DAA.

DITSCAP requires recertification every 3 years, or whenever changes occur to
the mission, software, hardware configuration, or operating environment that are
significant and affect the original security posture accepted by the DAA. In
addition, DoD 8510.1-M, “DITSCAP Application Manual” states that post
accreditation activities will include ongoing maintenance of the SSAA, system
operations, security operations, configuration management, and compliance
validation. The DITSCAP Application Manual also states that site operations


                                     8
staff and the Information Systems Security Officer are responsible for
maintaining an acceptable level of residual risk. This is achieved by addressing
security considerations when changes are made to either the information system
baseline or the baseline of the computing environment.

The responses to the DITSCAP question were unsupported because an updated
SSAA was not in place when the workbook was submitted to the ESG for
approval.

Federal Financial Management Improvement Act. The IRB workbook
indicated that IAPS was compliant with FFMIA. However, IAPS will not be fully
compliant with FFMIA until the DEAR modernization is implemented in
FY 2006.

The FFMIA requires each agency to implement and maintain financial systems
that comply with Federal financial management system requirements, applicable
Federal accounting standards, and the United States General Ledger at the
transaction level. In addition, FFMIA requires audits to report whether the
agency financial management systems comply with the requirements of the Act.

The FY 2005 DoD Performance Assessment Report, November 12, 2005, did not
indicate DoD-wide FFMIA compliance. The report states,

       Specifically, DoD acknowledged that many of its critical financial
       management and feeder systems did not comply substantially with
       Federal financial management systems requirements, Federal
       accounting standards, and the U.S. Government Standard General
       Ledger at the transaction level as of September 30, 2005. In an attempt
       to remedy these longstanding financial management systems
       deficiencies, DoD is developing a DoD-Wide Business Enterprise
       Architecture. Until the architecture is fully developed and
       implemented, DoD will continue to be unable to fully comply with the
       statutory reporting requirements.

DFAS uses DFAS 7900.4G, “A Guide to Federal Requirements for Financial
Management Systems,” November 2004, to assess compliance with FFMIA.
Known as the Blue Book, it serves as a guide for system managers to use in
determining whether their systems are FFMIA compliant. The Blue Book is
organized by major functional areas including Accounts Payable. The IAPS
system manager completed a Blue Book self-assessment indicating that the
FY 2006 DEAR modernization would allow IAPS to:
   •   support the full and partial receipt of services by line item,

   •   automatically match invoices to obligations and receiving reports by
       document and line item, and

   •   expand the database to support a 30-position invoice number.

The IAPS system manager answered in the workbook that IAPS is FFMIA
compliant. However, the system manager acknowledged in his Blue Book


                                         9
    self-assessment that IAPS was not fully compliant with FFMIA. In addition, the
    IRWG did not seek or require documentation supporting the IAPS FFMIA
    compliance certification.

    Therefore, system managers need to maintain supporting documentation that
    supports their responses to the IRB workbook questions. System managers also
    need to ensure that the supporting documentation is current and provides the best
    assurance that their responses are valid. This will ensure that responses to CCA,
    DITSCAP, and FFMIA compliance questions are accurate and fully supported.


Adequacy of Guidance and Review Procedures
    The IRWG did not provide adequate guidance to the IAPS system manager on
    how to complete the IAPS IRB workbook. In addition, the IRWG did not provide
    adequate review procedures for the IRB workbook.

    IRB Workbook Instructions. The IRB workbook instructions provided to the
    IAPS system manager did not adequately describe the steps that he should follow
    to complete the workbook. DFAS included instructions in the IRB workbook for
    IAPS as of August 29, 2005. The instructions have four steps for the system
    manager to follow. The four steps identified in the instructions are as follows:

           •   complete all worksheets in the workbook for your system;

           •   do not rename the workbook file;

           •   submit the completed workbook to your business line’s portfolio
               manager for review; and

           •   submit these three architecture exhibits with your workbook: All
               View-1, Technical Standards View-1, and Operational View-5.
    The instructions do not clearly state how the system managers should complete
    the workbook and do not identify criteria or documentation that the system
    managers should reference or maintain in order to validate their IRB workbook
    responses.

    Instructions on the ePortal. In addition to the instructions included in the
    workbook, the IRWG posted additional instructions for completing the IRB
    workbooks to the ePortal. The ePortal instructions state that the IRWG would
    provide written guidance for project managers and system managers on how to
    complete the workbooks.

    The ePortal instructions outlined similar steps to the ones included in the IRB
    workbook. However, these instructions, as written, do not adequately outline the
    necessary steps a system manager must follow to ensure that the IRB workbook is
    complete and that responses in the workbook are valid.




                                        10
The IRWG needs to develop and provide detailed instructions to the system
managers on how to complete the IRB workbooks. These instructions should
clearly state each step that the system managers should follow when completing
the IRB workbooks. The instructions should also identify the supporting
documentation that system managers should use and maintain when determining
the responses to the IRB workbook questions.

Workbook Review Procedures. The IRWG review procedures were inadequate
to detect unsupported responses to IRB workbook questions. For example, the
“DFAS Under $1 million Review Procedures,” as of August 19, 2005, had the
following steps.

   •   The CIO receives workbook and associated files.

   •   The CIO alerts all IRWG reviewers through ePortal.

   •   IRWG business line members review the workbook submission according
       to their respective topics for 2 days. Topics include the following:

              − General

              − Transition Plan

              − Architecture

              − Requirements and Justification

              − Economic Viability/Budget

              − Information Assurance

   •   If problems or a nonconcur are reported by the CIO or IRWG reviewers,
       the business line portfolio manager and system manager are notified
       within 1 day.

   •   If the workbook submission is accepted with comments, the issue is noted
       for later IRWG review, and the workbook is forwarded.

   •   If no problems are reported by reviewers, the CIO alerts all IRWG
       members and ESG.

   •   IRWG and ESG review the workbook for 1 day and alert CIO staff of a
       hold if a problem is identified.

   •   If an IRWG or ESG member has put a hold on the workbook submission,
       the portfolio manager, business line manager, and system manager resolve
       the issue within 1 day.

   •   If the workbook submission is accepted without a hold, the CIO issues the
       certification letter ending the review process.



                                   11
    On September 2, 2005, the DFAS CIO issued the, “Investment Technology
    Review Process,” memorandum. Appendix B of this memo contained the IRWG
    IRB Workbook Review Process. The appendix explained the IRWG process and
    provided a timeline for the review. It stated that in 3 business days, the IRWG
    does the following:

        •   reviews each workbook,

        •   resolves issues with the business line, and

        •   provides concurrence or nonconcurrence of the program modernization
            effort.

    The workbook review procedures do not state how the IRWG reviewers should
    evaluate workbook responses. The procedures do not specify what supporting
    documentation to examine, or what specific criteria to apply in analyzing
    workbook responses.

    The IRWG needs to develop and follow adequate standardized review procedures
    for the IRB workbooks. These procedures should clearly indicate the specific
    criteria and documentation that IRWG reviewers should use when determining
    the validity of the IRB workbook responses. This will ensure that IRB workbook
    responses accurately reflect compliance with laws such as CCA, DITSCAP, and
    FFMIA.


Conclusion
    The ESG approved the IAPS modernization for $759,000 based on unsupported
    information. Without adequate standard procedures and controls for
    modernizations under $1 million, the ESG may continue to approve procurements
    that are not adequately supported and reviewed. Improving the process will
    ensure that the ESG has the most reliable system information to make
    well-informed decisions for business system modernizations under $1 million in
    the future.

    The IRWG acknowledged the need to improve their investment review process.
    Based on the issues and concerns expressed to them during the audit, the IRWG is
    working to refine their investment review process. Specifically, the IRWG stated
    that they are:

    •   working to refine the CCA compliance validation process,

    •   working to refine the FFMIA compliance and validation process, and

    •   developing FY 2007 guidance and instructions.




                                         12
Management Comments on the Finding and Audit Response
Management Comments. The Director, Information and Technology responding for the
Director, Defense Finance and Accounting Service partially agreed with the need for
better documentation and did not agree with the conclusion that the IAPS modernization
was based on unsupported information. The Director stated that the 2005 NDAA does
not direct IRBs to require CCA or FFMIA compliance. In addition, the CCA comments
in the report note items that the audit team did not review rather than focusing on the
IRWG’s examination and rationale. However, the Director indicated that actions are in
progress to address the CCA and FFMIA concerns identified during the audit.
Furthermore, the Director disagreed with the conclusion that the DEAR modernization
was not supported because an updated SSAA was not in place. However, the Director
indicated that the SSAA was updated with information about the DEAR modernization in
September 2006.

Audit Response. We reviewed the DFAS Investment Review Process procedures and
found that system managers were required to certify that their systems were aligned with
applicable policies, laws, and regulations. Specifically, system managers were required
to indicate if their system was compliant with the CCA, the DITSCAP, and the FFMIA.
Regarding the Director’s comments on the audit team’s review of CCA compliance,
IRWG officials stated that they created a requirements table for reviewing IAPS
compliance with the CCA. We considered the IRWG examination and rationale in
auditing the IRB process by examining the contents of the table. As indicated in this
report, the IRWG referenced six documents used to validate IAPS compliance with the
CCA. However, three of the six documents were either not available, not required in the
certification package, or did not contain updated information.


Recommendations and Management Comments
   We recommend that the Director, Defense Finance and Accounting Service:

      1. Require that system managers maintain current supporting
   documentation for the under $1 million Investment Review Board workbook
   responses for FY 2007 and future years.
   Management Comments. The Director, Information and Technology responding for
   the Director, Defense Finance and Accounting Service concurred and stated that for
   FY 2007, DFAS requires that all modernizations, regardless of the dollar amount,
   have the same documentation and level of review. Additionally, DFAS established a
   repository through the DFAS ePortal for system managers to maintain documents for
   IRWG review.

      2. Develop, and provide to the system managers, detailed instructions on
   how to complete the under $1 million Investment Review Board workbooks for
   FY 2007 and future years.

   Management Comments. The Director, Information and Technology responding for
   the Director, Defense Finance and Accounting Service concurred and stated that for


                                           13
FY 2007, DFAS provided detailed instructions and procedures for the completion of
workbooks. Additionally, DFAS provided mandatory training in the investment
review process for system managers. Also, the IRWG provided system managers
with points of contact and established a monthly forum for updates and reminders.

    3. Develop and provide adequate standardized review process procedures
for the under $1 million Investment Review Board workbooks for FY 2007 and
future years.

Management Comments. The Director, Information and Technology responding for
the Director, Defense Finance and Accounting Service concurred and stated that for
FY 2007, the IRWG has published standard review criteria, including instructions for
each topic area of the workbooks, with specific criteria and supporting documentation
necessary for a due diligence review. Additionally, DFAS has added subject matter
experts to the IRWG to provide better topical coverage of reviews, including CCA,
DITSCAP, and FFMIA.




                                       14
Appendix A. Scope and Methodology
   We performed the audit at DFAS Headquarters in Arlington, Virginia, and DFAS
   Denver, Colorado. We reviewed the DFAS Investment Review Process used to
   approve the obligation of funding for FY 2006 IAPS modernization efforts. We
   interviewed members of the IRWG as well as the IAPS system manager. We also
   obtained and reviewed DFAS Investment Review Process procedures and
   documentation. Specifically, we reviewed charters, designation letters, the
   FY 2006 IAPS modernization workbook and supplemental documentation.

   We reviewed and compared the procedures and documentation to the following
   laws, policies, and DFAS guidance related to the Defense business system
   investment review process. Specifically, we reviewed:

   •   Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act
       for FY 2005,” October 28, 2004;

   •   Public Law 104-208, “Federal Financial Management Improvement Act ,”
       September 30, 1996;

   •   Public Law 104-106, “Clinger Cohen Act,” February 10, 1996;

   •   DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
       May 12, 2003;

   •   DoD Instruction 5200.4, “DoD Information Technology Security Certification
       and Accreditation Process,” December 30, 1997;

   •   DoD Manual 8510.1-M, “DoD Information Technology Security Certification
       and Accreditation Process Application Manual,” July 31, 2000;

   •   Department of Defense, “Investment Review Process Overview and Concepts
       of Operations For Investment Review Boards,” May 17, 2005;
   •   Department of Defense, “Business Systems Investment Review Proposal
       Submission Guideline,” July 15, 2005;

   •   “DoD Information Technology Registry Merger Into the DoD Information
       Technology Portfolio Repository,” September 28, 2005; and

   •   DFAS Publication 7900.4G, “A Guide to Federal Requirements for Financial
       Management Systems,” November 2004.

   We performed this audit from March 2006 through August 2006 in accordance
   with generally accepted government auditing standards. We did not review the
   management control program as it related to the investment review process
   because a management control program has not been established for the DFAS
   investment review process.




                                     15
Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the DoD Approach to Business Transformation, specifically,
DoD Financial Management and DoD Business Systems Modernization.

Prior Coverage. No prior coverage has been conducted on IAPS during the last
5 years.




                                   16
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Business Transformation Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform




                                       18
Defense Finance and Accounting Service
Comments




                      19
20
21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Michael Perkins
Yolanda C. Watts
Kandy T. Adams
Benjamin Calhoun
Christian A. Ikeanyi
Monelle K. Riviere
Shantiki S. Sanders
Jonathan T. Cruz
Michael E. Williams
Ann Thompson
